Supreme Court, U.S.
FILED

JAN 1 1 2021

No. 20-6489

OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

MARIO ALLAN MONTANO, PETITIONER,
v.
IVY ALICE WIMMER, RESPONDENT.

MOTION TO DISMISS THIS CASE

Mario Allan Montano
Petitioner, In Pro Se
3647 Springdale Dr.
Little River, SC 29566
(843) 582-7503
almontano29582@gmail.com

January 9, 2021

RECEIVED
JAN 2 2 2021
OFFICE OF THE CLEFA
SUPREME COLAT,.U.S.

INTRODUCTION
The Petitioner recently discovered that the issues in this case are more suited for a case
filing in the State of Michigan, Court of Claims. For that reason, the Petitioner seeks an order
dismissing this case.

JURISDICTION
The legal provisions in SCt. Rules 21 and 46(2)(a) apply to this motion. This Court has
jurisdiction to dismiss this motion.

FINDINGS OF FACT
The Respondent has not filed a document into the record of this case or served any
document relative to this case. The Petitioner knows of no costs or fees that he owes to this Court
or the Respondent in order to dismiss this case.

RELIEF REQUESTED
The Petitioner requests and prays that this Honorable Court grant this motion and issue an
order dismissing this case.

Respectfully submitted,

Mario Allan Montano, Petitioner
Date: January 9, 2021

No. 20-6489

IN THE

SUPREME COURT OF THE UNITED STATES
MARIO ALLAN MONTANO, Petitioner,
v.
IVY ALICE WIMMER, Respondent

PROOF OF SERVICE
I, Mario Allan Montano, do swear or declare that on this date, January 9, 2021, as required
by Supreme Court Rule 29 I have served the enclosed MOTION TO DISMISS THIS CASE, THIS
PROOF OF SERVICE on each party to the above proceeding or that party's counsel, and on every
other person required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class postage prepaid, or
by delivery to a third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Ivy Alice Wimmer, 2121 Penway Ct., Flint, MI 48532.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 9, 2021.

Mario Allan Montano
Petitioner

